                                   March 31, 2003

                                   DEWITT O. HARRIS
                                   VICE PRESIDENT, EMPLOYEE RESOURCE
                                    MANAGEMENT

                                   SUBJECT: Management Advisory – Postal
                                            Service’s Death Benefit Payments to
                                            Decedent’s Survivor(s)
                                            (Report Number HK-MA-03-002)

                                   This management advisory report presents the results of
                                   our self-initiated review of the Postal Service’s Death
                                   Benefit Payments to the Decedent’s Survivor(s) within the
                                   Capitol Metro, Southeast, and Southwest Areas (Project
                                   Number 03YG045HK000). The objectives of the review
                                   were to determine whether the Postal Service is effectively
                                   managing death benefit claims by identifying changes to
                                   and termination of survivors’ benefit entitlements and
                                   notifying the Department of Labor. In addition, we
                                   evaluated the program to identify potential areas for cost
                                   reductions.

 Results in Brief                  Our review determined that the Postal Service’s Injury
                                   Compensation Control Office (control office) did not
                                   effectively monitor or review death benefit claim files. We
                                   found the Office of Workers’ Compensation Programs death
                                   claim files did not always contain current documentation
                                   such as Forms CA-121 and EN-1615.2 We also found the
                                   Office of Workers’ Compensation Programs continued
                                   providing benefits to survivors who remarried before age 55
                                   and paid benefits to a deceased survivor. In addition, our
                                   review identified a third-party award check for over



1
  Office of Workers’ Compensation Programs Form CA-12 is used by survivors to report their current marital status,
dependent status, employment, and receipt of other benefits each year.
2
  Office of Workers’ Compensation Programs Form EN-1615 is used by children between the ages of 18 and 23 to
report whether they are pursuing a course of full-time study.



                                              Restricted Information
Postal Service’s Death Benefit Payments                                           HK-MA-03-002
 to Decedent’s Survivor(s)


                               $29,000, which was submitted to the Office of Workers’
                               Compensation Programs but was not credited to the Postal
                               Service’s chargeback account in a timely manner. This
                               occurred because the control office perceived the
                               monitoring and reviewing of death claims as the
                               responsibility of the Office of Workers’ Compensation
                               Programs. Also, the Postal Service did not provide the area
                               control offices with adequate training and procedures for
                               handling death benefit claims after approval by the Office of
                               Workers’ Compensation Programs. As a result, the Office
                               of Workers’ Compensation Programs paid an estimated
                               $1.3 million to survivors for benefits that were questionable.

                               We recommended that the injury compensation control
                               office staff coordinate with the Office of the Workers’
                               Compensation Programs district offices and review all death
                               benefit claims to verify survivors’ entitlement. In addition,
                               control office managers should review chargeback reports
                               for timely credits for third-party awards and provide control
                               office staff with training and guidance for monitoring and
                               reviewing death benefit claims.

                               Management neither agreed nor disagreed with
                               recommendation 1 or provided an opinion concerning the
                               $1.2 million in questionable costs. The actual amount of the
                               questionable costs cannot be determined until the Office of
                               Workers’ Compensation Programs makes an assessment of
                               survivors’ entitlement to continued benefits. Management
                               did state that active monitoring of the survivor’s benefits is
                               not the Postal Service’s primary responsibility.
                               Management also stated that they planned to write the
                               Office of Workers’ Compensation Programs to request that
                               they make a concerted effort to follow-up and enforce
                               requirements for submission of Forms CA-12 and EN-1615
                               to reduce the Postal Service’s financial burden. Further,
                               management stated their interest in knowing how many of
                               the 55-death claim files used in the calculation of the
                               $1.2 million in questionable costs were entitled to death
                               benefits. In addition, management neither agreed nor
                               disagreed with recommendation 2, however, management
                               stated they took steps in December 2002 to reinvigorate the
                               third party program and implement a tracking system.
                               Finally, management was not responsive to
                               recommendation 3 which addressed training staff and



                                                     2
                                          Restricted Information
Postal Service’s Death Benefit Payments                                           HK-MA-03-002
 to Decedent’s Survivor(s)



                               providing guidance for monitoring and reviewing death
                               benefit claims.

                               Although management neither agreed nor disagreed with
                               recommendation 2, the actions taken or planned should
                               correct the issues identified in the report. However,
                               management’s comments were not responsive and did not
                               meet the intent of recommendations 1 and 3. We believe
                               that management has a responsibility to coordinate actions
                               with the Office of Workers’ Compensation Programs to
                               review death benefit claims and verify survivors’ entitlement
                               to continued benefits. Also, without adequate training and
                               guidance, the control office staff will not have the knowledge
                               or experience to recognize situations that could be
                               potentially fraudulent or could result in costs savings to
                               the Postal Service. We do not plan to pursue
                               recommendation 3 through the formal audit resolution
                               process. However, we consider recommendation 1
                               unresolved and plan to pursue it through the formal audit
                               resolution process. Management’s comments, in their
                               entirety, are included in the appendix of this report.

 Background                    The Federal Employees' Compensation Act as amended,
                               (Title 5, United States Code, Section 8102), provides for the
                               payment of workers' compensation benefits to civilian
                               employees for disability due to personal injury or disease
                               sustained while in the performance of duty. Eligible
                               employees are also entitled to receive medical and related
                               services. In addition, the Federal Employees'
                               Compensation Act provides for payment of benefits to
                               dependents if a work-related injury or disease causes an
                               employee’s death. The Department of Labor, Office of
                               Workers’ Compensation Programs, administers the Federal
                               Employees' Compensation Act.

                               Title 20, Code of Federal Regulations Parts 10 and 25,
                               states that the survivors of a federal employee whose death
                               is work-related are entitled to benefits in the form of
                               compensation payments, funeral expenses, transportation
                               expenses for the remains, and payment for termination of
                               the decedent’s status as a federal employee. The Office of
                               Workers’ Compensation Programs classifies a survivor as a
                               widow or widower; an unmarried child under age 18, or over
                               18 who is incapable of self-support due to mental or


                                                     3
                                          Restricted Information
Postal Service’s Death Benefit Payments                                              HK-MA-03-002
 to Decedent’s Survivor(s)


                               physical disability; a child between 18 and 23 years of age
                               who has not completed 4 years of post-high school
                               education and is regularly pursing a full-time course of
                               study; or a parent, brother, sister, grandparent, or
                               grandchild who was wholly or partially dependent on the
                               deceased.

                               A surviving spouse with no eligible children is entitled to
                               compensation at the rate of 50 percent of the deceased
                               employee’s salary. The surviving spouse is entitled to
                               benefits until death or remarriage if he or she is under
                               age 55. If a spouse under age 55 remarries, the Office of
                               Workers’ Compensation Programs makes a lump-sum
                               payment equal to 24 times the monthly compensation at the
                               time of remarriage. However, remarriage after age 55 does
                               not affect the spouse’s entitlement to benefits.

                               A surviving spouse who has eligible children is entitled to
                               compensation at the rate of 45 percent of the deceased
                               employee’s salary. An additional 15 percent is payable for
                               each child, up to a maximum of 75 percent of the salary.
                               The children’s portion is paid on a share-and-share-alike
                               basis. If the deceased employee leaves no spouse, the
                               first child is entitled to 40 percent, and each additional child
                               is entitled to 15 percent of the deceased employee’s salary
                               up to a maximum of 75 percent, payable on a share-and-
                               share-alike basis. Other surviving dependents may be
                               entitled to benefits at various percentages specified by the
                               Federal Employees' Compensation Act, according to the
                               degree of dependence.

 Objectives, Scope,            The objectives of our review were to determine whether the
 and Methodology               Postal Service is effectively managing death benefit claims
                               by identifying changes to and terminations of survivors’
                               benefit entitlements and notifying the Office of Workers’
                               Compensation Programs, and to evaluate the program to
                               identify potential areas for cost reductions.

                               To achieve these objectives, we reviewed Postal Service
                               and Office of Workers’ Compensation Programs policies
                               and procedures for case management of death claims. To
                               identify the total number of death claims, we reviewed data
                               from the Postal Injury Compensation System and obtained
                               death claims reports as of December 28, 2002, from the
                               Postal Service area offices. We also interviewed officials of


                                                     4
                                          Restricted Information
Postal Service’s Death Benefit Payments                                           HK-MA-03-002
 to Decedent’s Survivor(s)


                               the Postal Service and the Office of Workers’ Compensation
                               Programs to obtain additional data on the case
                               management of death claims. In addition, we reviewed
                               death claim files at the Office of Workers’ Compensation
                               Programs district offices (District 6–Jacksonville, Florida;
                               District 16–Dallas, Texas; and District 25–Washington, DC).

                               This review was limited to death claims for which the Office
                               of Workers’ Compensation Programs paid compensation to
                               survivors for chargeback year 2002 (from June 2001
                               through July 2002). We selected the Capitol Metro,
                               Southeast, and Southwest Areas for review. We also
                               identified a total of 142 death claims for the three areas.
                               We only reviewed 132 of the 142 death claims because
                               ten files were not available for review. Of the ten death
                               claims, eight were transferred to other Workers’
                               Compensation Programs district offices and two were
                               missing.

                               We reviewed the 132 death claim files for completeness to
                               determine whether the files contained current
                               documentation such as, Forms CA-5 and CA-12; death,
                               marriage, and birth certificates; and Form EN-1615 and
                               educational certifications. We determined that 1 of the
                               132 death claim files did not require current documentation
                               because the survivor selected benefits from the Office of
                               Personnel Management instead of receiving benefits from
                               the Office of Workers’ Compensation Programs.

                               This review was conducted from January through
                               March 2003 in accordance with the President’s Council on
                               Integrity and Efficiency, Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Prior Audit Coverage          We identified two audit reports issued by the Postal Service
                               Office of Inspector General (OIG) and the Department of
                               Labor OIG that address issues relating to death claims.

                               Postal Service OIG, Southwest Area’s Efforts in Obtaining
                               Appropriate Chargeback Credits for Identified Wage
                               Compensation Overpayments and Refundable
                               Disbursements (Report Number LH-AR-02-003, dated
                               May 8, 2002). This audit disclosed that Postal Service


                                                     5
                                          Restricted Information
Postal Service’s Death Benefit Payments                                                            HK-MA-03-002
 to Decedent’s Survivor(s)


                                  policies ensured that appropriate chargeback credit
                                  adjustments for wage compensation overpayments and
                                  third-party liability refundable disbursements were received.
                                  However, five of the six Southwest Area performance
                                  clusters reviewed did not implement automated or manual
                                  follow-up procedures to comply with the policies.

                                  Department of Labor OIG, Federal Employees’
                                  Compensation Act Excess Payment Recovery Procedures
                                  Need Improvement (Report Number 03-98-003-04-431,
                                  dated March 31, 1998). This report found that in most
                                  cases, excess payments were made because Office of
                                  Workers’ Compensation Programs offices had not been
                                  notified in a timely manner of claimants’ deaths, or upon
                                  notification, they failed to promptly terminate compensation
                                  benefit payments. In addition, Federal Employees’
                                  Compensation Act district offices did not follow existing
                                  procedures for recovering excess payments, and did not
                                  track or account for excess payments to ensure that all were
                                  recovered. The Employment Standards Administration
                                  concurred with the recommendations.

    Case Management of            Our review determined that the control office staff did not
    Death Benefit Claims          effectively monitor or review death benefit claim files.
                                  Specifically, we found the Office of Workers’ Compensation
                                  claim files did not contain current documentation such as,
                                  Forms CA-12 and EN-1615. We also found the Office of
                                  Workers’ Compensation Programs paid compensation
                                  benefits that survivors were not entitled to receive. Further,
                                  the Office of Workers’ Compensation Programs did not
                                  credit the Postal Service in a timely manner for over
                                  $29,000 related to a third party claim. These conditions
                                  occurred because the control office perceived the
                                  monitoring and reviewing of death claims as the
                                  responsibility of the Office of Workers’ Compensation
                                  Programs. In addition, the Postal Service did not provide
                                  training and guidance to area control office staff. As a
                                  result, the Postal Service paid an estimated $1.3 million3 to
                                  survivors for benefits that they might not have been entitled
                                  to receive.




3
 We calculated this amount based on $1.2 million of benefit payments received by survivors who did not submit a
current Form CA-12 plus an estimated overpayment of $87,000 paid to a remarried survivor.


                                                        6
                                             Restricted Information
Postal Service’s Death Benefit Payments                                                     HK-MA-03-002
 to Decedent’s Survivor(s)



    Lack of Current                 We found death claim files did not always contain current
    Documentation in                documentation, such as Forms CA-12 and EN-1615.
    Death Claim Files               Specifically, we reviewed a total of 132-death claim files
                                    assigned to the Capitol Metro, Southeast, and Southwest
                                    areas. Of the 132 files:

                                        •   71 files had current Forms CA-12.
                                        •   55 files did not have current Forms CA-12.
                                        •   5 did not include a Form CA-12.
                                        •   1 was assigned to Office of Personnel Management.4

                                    Title 20, Code of Federal Regulations, Section 10.414,
                                    requires a Form CA-12 to be returned within 30 days of
                                    request. If a Form CA-12 is not returned within 30 days of
                                    request, the Office of Workers’ Compensation Programs
                                    shall suspend compensation until the requested form or an
                                    equivalent written statement is received.

                                    Although the death claim files were lacking current
                                    Forms CA-12, the Office of Workers’ Compensation
                                    Programs did not suspend benefits. The Office Of Workers’
                                    Compensation Programs continued monthly payments to
                                    the survivor, although the survivor moved and left no
                                    forwarding address. When survivors submitted change of
                                    address forms, the Office of Workers’ Compensation
                                    Programs did not update the survivors’ current addresses.
                                    As a result, the Office of Workers’ Compensation Programs
                                    paid $1.18 million in compensation for death claims lacking
                                    current Forms CA-12.

                                    Table 1 below shows the number of death claims and the
                                    most recent year a Form CA-12 was returned by the
                                    survivor.




4
    Cases assigned to Office of Personnel Management do not require a current Form CA-12.


                                                         7
                                              Restricted Information
Postal Service’s Death Benefit Payments                                                                 HK-MA-03-002
 to Decedent’s Survivor(s)



                                                                        Table 1

                                                            Year of most recent Form CA-12
                                          Area          1997 1998 1999 2000 2001 Total

                                     Capitol Metro        0        1        2         0        0         3

                                     Southeast            0        0        2         4       18        24

                                     Southwest            1        2        8         2       15        28

                                     Total                1        3        12        6       33        55


                                    We also found that in 2001, the Office of Workers’
                                    Compensation Programs accepted a Form EN-1615 dated
                                    and certified in 1999 from an educational institution.
                                    Title 20, Code of Federal Regulations, Section 10.417,
                                    requires the Office of Workers’ Compensation Programs, at
                                    least twice each year, to request that a beneficiary who
                                    receives compensation based on the student status of a
                                    dependent, provide proof of continuing entitlement to such
                                    compensation, including certification of school enrollment.
                                    However, the Office of Workers’ Compensation Programs
                                    did not ensure that the forms were current, and continued
                                    benefits based on outdated certifications.

    Overpayments to                 Our review determined that the Office of Workers’
    Deceased and                    Compensation Programs continued providing benefits to
    Remarried Survivors             deceased and remarried survivors. For example, a relative
                                    sent a letter in September 2002 to the Office of Workers’
                                    Compensation Programs stating that this was the third time
                                    he had reported the death of the survivor. The relative also
                                    took the initiative to return checks to the Office of Workers’
                                    Compensation Programs but the compensation payments
                                    continued. We reviewed the Social Security Death Index5
                                    and confirmed that the survivor died in May 2002. However,
                                    from June 2002 through January 2003, the deceased
                                    survivor continued to receive monthly payments of
                                    $1,727 totaling approximately $14,000. As of
                                    February 2003, the deceased survivor was still listed on the
                                    death roll.
5
  The Social Security Death Index is a public listing available on the Internet (www.rootsweb.com) that lists the name,
date of birth, date of death, last residence, and Social Security number of individuals who have died as reported by a
relative or funeral home.


                                                          8
                                               Restricted Information
Postal Service’s Death Benefit Payments                                                               HK-MA-03-002
 to Decedent’s Survivor(s)



                                   In addition, survivor benefits were paid to a claimant who
                                   remarried in August 1993 before the age of 55. Title 20,
                                   Code of Federal Regulations, Section 10.410, requires
                                   benefits to be terminated if a survivor remarries before the
                                   age of 55. If a survivor remarries before age 55, he or she
                                   is entitled to a lump sum equal to 24 times the monthly
                                   compensation payment. However, the Office of Workers’
                                   Compensation Programs paid the remarried survivor over
                                   $105,000 in monthly payments from August 1993 through
                                   January 2003. According to Title 20, Code of Federal
                                   Regulations, Section 10.410, the remarried survivor should
                                   have been paid a lump sum payment of approximately
                                   $18,000. As a result, we estimated that the remarried
                                   survivor was overpaid by approximately $87,000.

    Untimely Credit for            Our review identified a third party award6 check for
    Third Party Award              approximately $29,000 that was submitted to the Office of
    Check                          Workers’ Compensation Programs in September 2002 for
                                   crediting to the Postal Service’s chargeback account.
                                   However, during our review, we found that the chargeback
                                   account had not been credited. Further, the Postal Service
                                   did not consistently monitor the chargeback account for the
                                   proper credit. According to the Postal Service’s
                                   Handbook EL-505, Injury Compensation, December 1995,
                                   once the settlement funds are disbursed, the control office
                                   must ensure that the Office of Workers’ Compensation
                                   Programs credits the appropriate payment to the Postal
                                   Service.

                                   Although the Postal Service sent a reminder letter in
                                   October 2002, the control office did not follow up on the
                                   status of the credit until we inquired during our review in
                                   February 2003. In a memorandum dated February 13,
                                   2003, the Postal Service stated that the Office of Workers’
                                   Compensation Programs has credited the chargeback
                                   account for approximately $29,000. The Postal Service’s
                                   lack of oversight in reviewing the chargeback report resulted
                                   in higher administrative7 and chargeback fees.

6
  A third-party award is paid when a person or organization other than the Postal Service or another agency is
responsible for a job-related injury or illness for which an employee receives benefits under the Federal Employees'
Compensation Act. The Department of Labor, the Postal Service, or the employee may attempt to recover damages
from the third party or the insurer.
7
  The Postal Service is charged an administrative fee by the Office of Workers’ Compensation Programs based on
the number of claims and total amount of chargeback amount for the year.


                                                         9
                                              Restricted Information
Postal Service’s Death Benefit Payments                                            HK-MA-03-002
 to Decedent’s Survivor(s)



 Perceived                     The control office perceived the monitoring and reviewing of
 Responsibility                death claims as the responsibility of the Office of Workers’
                               Compensation Programs. Because the Office of Workers’
                               Compensation Programs is the adjudicating authority and
                               has final determination to accept or deny a claim, the control
                               office has taken a hands-off approach with regard to
                               management of death claims. As a result, there is no clear
                               line of responsibility between the Office of Workers’
                               Compensation Programs and the Postal Service for
                               management of death claims.

 Inadequate Training           The Postal Service did not provide the control offices with
 and Procedures                adequate training and procedures managing death claims
                               after approval by the Office of Workers’ Compensation
                               Programs. Although the Postal Service provided training
                               through the Basic Injury Compensation Course 19Q01-11,
                               “Claims and Medical Management-Death Claims,”
                               February 2001, the course did not outline the
                               responsibilities of the control office to monitor and follow up
                               on death claims once the Office of Workers’ Compensation
                               Programs approved them. We found that the control offices
                               did not review death claim files to determine whether
                               survivors were entitled to continued benefits. According to
                               the Postal Service’s Handbook EL-505, the supervisor of
                               the control office is required to periodically review death
                               benefit claims to ensure that the legal period of entitlement
                               has not been exceeded.

                               Managers at area control offices stated that they have been
                               tasked with monitoring the periodic roll to identify employees
                               who may be eligible for reemployment or disability
                               retirement. As a result, the task of monitoring and reviewing
                               death benefit claims is not a high priority for the control
                               offices.

 Conclusion                    The monitoring and reviewing of death claim files by the
                               control offices would benefit the Postal Service because
                               better follow up by the control office and more timely
                               termination by the Office of Workers’ Compensation
                               Programs would avoid inappropriate payments to survivors.
                               Also, the Postal Service would not pay more than required
                               in death benefits, if the control office staff were assigned to
                               annually review all death claim files. Furthermore, the



                                                    10
                                          Restricted Information
Postal Service’s Death Benefit Payments                                           HK-MA-03-002
 to Decedent’s Survivor(s)



                               Postal Service should continually track chargeback amounts
                               to receive proper credit.

 Recommendation                We recommend the vice president, Employee Resource
                               Management, direct the manager, Health and Resource
                               Management to:

                                   1. Advise control office managers to coordinate with the
                                      Office of Workers’ Compensation Programs district
                                      offices and review all death benefit claims to verify
                                      survivors entitlement to continued benefits.

 Management’s                  Management neither agreed nor disagreed with
 Comments                      recommendation 1 or provided an opinion concerning the
                               $1.2 million in questionable costs. With regards to the
                               $1.2 million, the actual amount of the questioned costs can
                               only be determined after the Postal Service and the Office
                               of Workers’ Compensation Programs complete an
                               assessment of the death claim files reviewed in this report.
                               As a result, the actual amount cannot be determined until
                               the Office of Workers’ Compensation Programs makes an
                               assessment of survivors’ entitlement to continued benefits.
                               Management stated that active monitoring of the survivor’s
                               benefits is not the Postal Service’s primary responsibility.
                               Management also stated that they planned to write the
                               Office of Workers’ Compensation Programs to request that
                               they make a concerted effort to follow-up and enforce
                               requirements for submission of Forms CA-12 and EN-1615
                               to reduce the Postal Service’s financial burden. Further,
                               management stated their interest in knowing how many of
                               the 55-death claim files used in the calculation of the
                               $1.2 million in questionable costs were entitled to death
                               benefits. Management stated that over the years, the
                               Inspection Service had taken responsibility to monitor death
                               claim files because they had the resources and authority to
                               check records not available to control office staff. In
                               addition, management stated that the Office of Workers’
                               Compensation Programs does not provide copies of
                               Forms CA-12 and EN-1615 or allow area control office staff
                               to visit the Office of Workers’ Compensation Program
                               district offices. Finally, management stated that they are not
                               adequately staffed or have the legal authority to undertake
                               this additional responsibility of conducting routine record
                               checks, with the exception of isolated cases.


                                                    11
                                          Restricted Information
Postal Service’s Death Benefit Payments                                             HK-MA-03-002
 to Decedent’s Survivor(s)



 Evaluation of                 Management’s comments were not responsive to this
 Management’s                  recommendation. Although monitoring of survivors’ benefits
 Comments                      is not the primary responsibility of the control office staff; we
                               believe an annual review of death claim files by the Postal
                               Service would minimize payments made to survivors who
                               were not entitled to receive benefits. Since benefits were
                               directed by the Office of Workers’ Compensation Programs
                               to be paid from the employees’ compensation fund, Postal
                               Service management should be cognizant of the injury
                               compensation benefits paid on their behalf. Even though
                               the Postal Service stated that control office staff do not have
                               the legal authority to conduct routine record checks, the
                               Office of Workers’ Compensation Programs provides routine
                               access for agency personnel to inspect given files at each
                               district office. We view the disagreement on this
                               recommendation as unresolved and plan to pursue it
                               through the formal audit resolution process.

 Recommendation                We recommend the vice president, Employee Resource
                               Management, direct the manager, Health and Resource
                               Management to:

                                   2. Ensure control office managers review chargeback
                                      reports to ensure timely credits for third-party awards.

 Management’s                  Management neither agreed nor disagreed with
 Comments                      recommendation 2, however, management stated that they
                               took steps in December 2002 to reinvigorate the third party
                               program and implement a tracking system.

 Evaluation of                 We evaluated management’s comments and determined
 Management’s                  those comments to be responsive to the recommendation.
 Comments                      Management’s actions taken or planned should correct the
                               issues identified in the report.

 Recommendation                    3. Ensure control office managers provide staff with
                                      training and guidance for monitoring and reviewing
                                      death benefit claims.

 Management’s                  Management neither agreed nor disagreed with
 Comments                      recommendation 3.




                                                    12
                                          Restricted Information
Postal Service’s Death Benefit Payments                                            HK-MA-03-002
 to Decedent’s Survivor(s)



 Evaluation of                 Management’s comments were not responsive to this
 Management’s                  recommendation because they did not consider the task of
 Comments                      monitoring death benefit claims as the primary responsibility
                               of control office staff. Therefore, training regarding this
                               issue is not applicable. However, we believe without
                               adequate training and guidance, the control office staff will
                               not have the knowledge or experience to recognize
                               situations that could be potentially fraudulent or could result
                               in costs savings to the Postal Service. We do not plan to
                               pursue this recommendation through the formal audit
                               resolution process.

                               The OIG considers recommendations 1 significant and
                               therefore requires OIG concurrence before closure.
                               Consequently, the OIG requests written confirmation when
                               corrective actions are completed. These recommendations
                               should not be closed in the follow-up tracking system until
                               and OIG provides written confirmation that the
                               recommendations can be closed.

                               We appreciate the cooperation and courtesies provided by
                               your staff. If you have any questions or need additional
                               information, please contact Erica Blackman, director, Health
                               Care Audit at (703) 248-2100, or me at (703) 248-2300.



                               B. Wayne Goleski
                               Assistant Inspector General
                                for Core Operations

                               Attachment

                               cc: Suzanne F. Medvidovich
                                   Ronald E. Henderson
                                   William J. Brown
                                   George L. Lopez
                                   Jerry D. Lane
                                   James J. Rowan, Jr.
                                   Susan M. Duchek




                                                    13
                                          Restricted Information
Postal Service’s Death Benefit Payments                            HK-MA-03-002
 to Decedent’s Survivor(s)


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                    14
                                          Restricted Information
Postal Service’s Death Benefit Payments                            HK-MA-03-002
 to Decedent’s Survivor(s)




                                                    15
                                          Restricted Information
